                                        June 30, 2006




MEMORANDUM TO:            Luis A. Reyes
                          Executive Director for Operations



FROM:                     Stephen D. Dingbaum /RA/
                          Assistant Inspector General for Audits


SUBJECT:                  EVALUATION OF PERSONAL PRIVACY
                          INFORMATION FOUND ON NRC NETWORK
                          DRIVES (OIG-06-A-14)


This report presents the results of the subject evaluation. Agency comments
provided at the exit conference on May 18, 2006, and in a written response,
dated June 20, 2006, have been incorporated, as appropriate, into this report.
Appendix C contains a copy of the agency’s written comments and our response.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken
or planned are subject to OIG follow up as stated in Management Directive 6.1.

We appreciate the courtesies and cooperation extended to us by members of
your staff during the audit. If you have any questions or comments about our
report, please contact me at 301-415-5915, or Beth Serepca at 415-5911.

Attachment: As stated
Electronic Distribution

John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
  State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
   and Administration, and Chief Information Officer, OEDO
William M. Dean, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Michael R. Johnson, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Janet R. Schlueter, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
            EVALUATION REPORT



                  Evaluation of Personal Privacy Information
                       Found on NRC Network Drives

                         OIG-06-A-14 June 30, 2006




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                   Office of the Inspector General
                                    Personal Privacy Information
                                   Found on NRC Network Drives




                             Contract Number: GS-00F-0001N
                           Delivery Order Number: DR-36-03-346

                                                        June 29, 2006




The views, opinions, and findings contained in this report are those of the authors and should not be construed as an official Nuclear Regulatory
                       Commission position, policy, or decision, unless so designated by other official documentation.
Personal Privacy Information Found on NRC Network Drives




          [Page intentionally left blank]
                                Personal Privacy Information Found on NRC Network Drives



TABLE OF CONTENTS


I.     BACKGROUND...................................................................................................... 1
II.    FINDING ................................................................................................................. 2
III.   RECOMMENDATIONS........................................................................................... 6
IV.    AGENCY COMMENTS ........................................................................................... 7


Appendices

A.     SCOPE AND METHODOLOGY ............................................................................. 9
B.     ILLUSTRATION OF INFORMATION FOUND ...................................................... 11
C.     FORMAL AGENCY COMMENTS......................................................................... 21
D.     DETAILED OIG ANALYSIS OF AGENCY COMMENTS...................................... 25




                                                                i
Personal Privacy Information Found on NRC Network Drives




          [Page intentionally left blank]




                           ii
                             Personal Privacy Information Found on NRC Network Drives



I.      BACKGROUND

As a part of the Fiscal Year (FY) 2006 Federal Information Security Management Act (FISMA)
independent evaluation of the Nuclear Regulatory Commission’s (NRC) information security
program, Richard S. Carson and Associates, Inc. (Carson Associates) identified an issue that
warrants your attention. Carson Associates found personal privacy information, including Social
Security numbers and dates of birth, on NRC network drives that can be accessed by all agency
network users. This information may be subject to the provisions of the Privacy Act of 1974.

Personal privacy information was found on NRC network drives that can be accessed by all
agency network users because (1) NRC employees are not following existing guidance for
protecting personal privacy information, and (2) NRC lacks procedures for monitoring NRC
network drives for sensitive data. As a result, NRC employees could be at risk for identity fraud,
and the agency may not be in compliance with the Privacy Act.

Personal Privacy Information

Personal privacy information is information about an individual including, but not limited to,
Social Security number, home address, home telephone number, date of birth, and financial and
medical information.1 Information in identifiable form is information in an information
technology system or online collection: (i) that directly identifies an individual (e.g., name,
address, Social Security number or other identifying number or code, telephone number, e-mail
address, etc.) or (ii) by which an agency intends to identify specific individuals in conjunction
with other data elements, i.e., indirect identification.2

The Privacy Act of 1974, as amended (5 U.S.C. § 552a), establishes safeguards for the protection
of records the Federal government collects, maintains, uses, and disseminates on individuals.
The Privacy Act applies to a specific category of personal privacy information in an identifiable
form — records3 retrieved by a personal identifier from an agency system of records.4 A
personal identifier can be a number assigned to an individual or the individual’s Social Security
number.

Personal privacy information and information in an identifiable form that is not protected by the
Privacy Act also requires appropriate safeguards. Guidance from OMB reminds agencies they
are required to inform and educate employees and contractors of their responsibility for
protecting information in identifiable form. OMB just recently issued a memorandum on
safeguarding personally identifiable information.5 That memorandum includes a requirement to

1
  NRC Yellow Announcement 064, “Personal Privacy Information,” September 26, 2005.
2
  Office of Management and Budget (OMB) Memorandum M-03-22, “OMB Guidance for Implementing the Privacy
  Provisions of the E-Government Act of 2002,” September 26, 2002.
3
  A record is any item, collection, or grouping of information about an individual that is maintained by an agency,
  including, but not limited to, his education, financial transactions, medical history, and criminal or employment
  history and that contains his name, or the identifying number, symbol, or other identifying particular assigned to
  the individual, such as a finger or voice print or a photograph.
4
  A system of records is a group of any records under the control of an agency from which information is retrieved
  by the name of an individual or by an identifying number, symbol, or other identifier assigned to an individual.
5
  OMB Memorandum M-06-15, “Safeguarding Personally Identifiable Information,” May 22, 2006.


                                                         1
                           Personal Privacy Information Found on NRC Network Drives



remind employees of their specific responsibilities for safeguarding personally identifiable
information.

II.       FINDING

As a part of the FY 2006 FISMA independent evaluation of the NRC’s information security
program, Carson Associates found personal privacy information, including Social Security
numbers and dates of birth, on NRC network drives that can be accessed by all agency network
users. This information may be subject to the provisions of the Privacy Act of 1974.

Personal privacy information was found on the NRC network drives because (1) NRC employees
are not following existing guidance for protecting personal privacy information, and (2) NRC
lacks procedures for monitoring NRC network drives for sensitive data. As a result, NRC
employees could be at risk for identity fraud, and the agency may not be in compliance with the
Privacy Act.

NRC Network Drives

When an NRC employee logs in to the NRC network, several local and network drives are made
available for use. Local drives are those drives found on the employee’s local workstation (e.g.,
the C: drive). Network drives are those drives found on the NRC network and allow the
employee to share those drives, and the files stored on them, with other NRC employees. Some
network drives have limited access, while others can be accessed by all agency network users.

According to an NRC announcement dated December 10, 2004, the standard NRC workstation
local drives are:

      •   A: drive – diskette drive; used for reading/writing diskettes.
      •   C: drive – primary hard disk drive; used for storage of operating system and applications
          programs and data.
      •   D: drive – Compact Disk Read-Only Memory (CD-ROM) drive; used for reading data
          from CD-ROMs.

The standard NRC workstation network drives are:

      •   G: drive – network storage location for an organization, usually at the Office level, to
          share files and documents (referred to as the “Group” drive).
      •   P: drive – network storage location for individual use (referred to as the “Personal”
          drive).
      •   R: drive – network storage location for viewing, not editing, files, and documents used
          by multiple organizations (referred to as the “Read-only” drive). The R: drive on each
          server can be accessed by all agency network users.
      •   S: drive – network storage location for files to be shared among multiple organizations
          (referred to as the “Shared” drive). The S: drive on each server can be accessed by all
          agency network users.


                                                      2
                         Personal Privacy Information Found on NRC Network Drives




   •   Y: drive – network storage location for application-related files shared among multiple
       organizations. For example, the blank forms used for Informs are stored here. The Y:
       drive on each server can be accessed by all agency staff; however some files and folders
       are available for viewing, but not editing.

Carson Associates found the personal privacy information on an R: drive, which according to the
NRC announcement, can be accessed by all agency network users.

NRC Employees Are Not Following Existing Guidance

To protect the rights of individuals from invasion of personal privacy, NRC has management
controls throughout its policies and procedures regarding the protection of personal privacy
information. However, NRC’s protection of personal privacy information is weakened by staff
failing to follow the agency’s established policies and procedures.

Management Directive (MD) and Handbook 3.2, Privacy Act, Part V, define the responsibilities
of NRC employees who work with records containing information about individuals, including
the responsibilities of NRC employees. These responsibilities include:

   •   Disseminate no information concerning individuals to other NRC employees unless they
       have a “need to know” the information in order to perform their official duties.
   •   Maintain and process information concerning individuals in a manner that will ensure no
       inadvertent or unauthorized disclosures are made of the information.

MD and Handbook 12.5, NRC Automated Information Security Program, state that users shall
protect sensitive unclassified information in his or her possession from unauthorized access,
disclosure, modification, misuse, damage, or theft.

In addition to the policies and procedures described above, the NRC Office of Information
Services issues periodic reminders to NRC employees regarding their responsibility to protect
personal privacy information. The most recent reminder was sent in the form of a Yellow
Announcement to all NRC employees on September 26, 2005. The Yellow Announcement
defined personal privacy information as information about an individual, including, but not
limited to, Social Security number, home address, home telephone number, date of birth, and
financial and medical information. NRC employees and contractors were reminded of their
responsibility to protect personal privacy information, whether the information is their own or
about others.

In addition, the NRC announcement regarding NRC local and network drives, dated December
10, 2004, specifically reminded staff that when a file or document is saved, staff should be aware
of the location where the data is being stored. The announcement also reminded staff that files
on an R: drive can be viewed by other network users and that data that needs protection from
access by other network users can be placed on a diskette or other removable storage media and
appropriately stored away from the workstation.




                                                    3
                         Personal Privacy Information Found on NRC Network Drives



Despite NRC’s policies and procedures regarding the protection of personal privacy information
and the periodic reminders sent by the Office of Information Services, Carson Associates found
several documents containing personal privacy information, including Social Security numbers
and data of birth, on NRC network drives that can be accessed by all agency network users.
Some of these files include:

   •   Excel spreadsheets including bonus awards information for Senior Executive Service
       personnel (including Social Security numbers)
   •   Excel spreadsheet containing over 500 employee names and Social Security numbers
   •   Eight text files, each containing over 500 employee names, Social Security numbers, and
       dates of birth

According to the agency, R: drives are read only for users. Files are added to it by systems
administrators in the Network Operations Center who have write privileges. See Appendix B for
screen shots of some of the files found on the NRC network drives. NOTE: Appendix B will be
redacted in the publicly available version of the report.

NRC Lacks Procedures for Monitoring NRC Network Drives

MD and Handbook 3.2 state that office directors and regional administrators are responsible for
conducting periodic reviews of systems of records under their control to ensure compliance with
guidelines and procedures implementing the Privacy Act.

However, none of NRC’s policies and procedures specifically describe procedures for
monitoring NRC network drives for the presence of personal privacy information to ensure it is
being properly controlled in accordance with the NRC policies and procedures. According to the
agency, drive owners frequently review shared drive components, however only on an ad hoc
basis.

These ad hoc reviews are not sufficient, as some of the files found containing personal privacy
information are almost 10 years old.

NRC Employees Are At Risk for Identity Fraud

Due to the presence of personal privacy information on NRC network drives that can be accessed
by all agency network users, NRC employees are at risk for identity fraud. Identity fraud is the
deliberate assumption of another person’s identity, most often to gain access to his or her
finances. Approximately 11.8 million Americans (1 in 20 adults) have been victimized by
identity fraud as of April 2003, according to research by Star Systems. In many instances, a
criminal only needs a name, Social Security number, and date of birth to commit identity fraud.
Identity fraud can result in both financial costs to the victim, but also lost time spent trying to
restore damaged credit resulting from the identity fraud.




                                                    4
                                Personal Privacy Information Found on NRC Network Drives



The Agency May Not Be In Compliance With the Privacy Act

The personal privacy information found on NRC network drives that can be accessed by all
agency network users is similar to information found in more than one of NRC’s systems of
records published in the Federal Register6 and also fits the definition of a duplicate system of
records. As defined in MD and Handbook 3.2, a duplicate system of records is a group of
records that are similar to records contained in an NRC system of records. It need not contain all
of the records contained in the primary system. The information also meets the criteria of a
“record” as defined by the Privacy Act.

Carson Associates could not determine whether the personal privacy information found on the
NRC network drives came from, or is maintained as a part of, a Privacy Act system of records,
or if the information is considered a duplicate system of records. However, if the information
did come from a system of records, or is determined to be a duplicate system of records, then the
agency may not be in compliance with the Privacy Act.




6
    Federal agencies covered by the Privacy Act are required to publish descriptions of their systems of records in the
    Federal Register. Each Federal Register notice for a system of records includes information regarding agencies
    policies and practices regarding storage, retrieval, safeguards, and disposal of records in the system.


                                                             5
                           Personal Privacy Information Found on NRC Network Drives



III.      RECOMMENDATIONS

The Office of the Inspector General recommends that the Executive Director for Operations:

       1. Remind employees of their responsibilities to protect personal privacy information.

       2. Remind employees that files on network drives may be viewed by other network users
          and that personal privacy information should not be posted on network drives unless
          access to that information is appropriately restricted to users with a “need to know.”

       3. Develop polices and procedures for reviewing network drives for the presence of
          personal privacy information.

       4. Conduct an immediate review of all network drives for the presence of personal privacy
          information and remove any information that should not be posted on a network drive
          unless access to that information is appropriately restricted to users with a “need to
          know.”




                                                      6
                       Personal Privacy Information Found on NRC Network Drives



IV.    AGENCY COMMENTS

At an exit conference with the agency held on May 18, 2006, the agency provided informal
comments and generally agreed with the report recommendations. On June 20, 2006, the agency
provided a formal response with additional comments. Where appropriate, the Office of the
Inspector General (OIG) modified the report in response to these comments. Appendix C
contains a copy of the agency’s formal written comments. Appendix D contains OIG’s specific
responses to the agency’s comments.




                                                  7
Personal Privacy Information Found on NRC Network Drives




          [Page intentionally left blank]




                           8
                        Personal Privacy Information Found on NRC Network Drives



A.     SCOPE AND METHODOLOGY

To prepare this report, Carson Associates reviewed MD 3.2 and MD 12.5, NRC’s Privacy Act
systems of records notice in the Federal Register, and several NRC announcements found on the
NRC internal web site. Carson Associates also conducted an interview with NRC’s senior
information technology security officer and other staff members from the Office of Information
Services. The work was conducted during April and May 2006 in accordance with best practices
for evaluating security controls. Jane M. Laroussi, CISSP, and Kelby M. Funn, CISA, from
Carson Associates conducted the work.




                                                   9
Personal Privacy Information Found on NRC Network Drives




          [Page intentionally left blank]




                          10
                Personal Privacy Information Found on NRC Network Drives




B.   ILLUSTRATION OF INFORMATION FOUND




OFFICIAL USE ONLY APPENDIX HAS BEEN REDACTED FOR PUBLIC RELEASE




                                          11
               Personal Privacy Information Found on NRC Network Drives




OFFICIAL USE ONLY APPENDIX HAS BEEN REDACTED FOR PUBLIC RELEASE




                                         12
               Personal Privacy Information Found on NRC Network Drives




OFFICIAL USE ONLY APPENDIX HAS BEEN REDACTED FOR PUBLIC RELEASE




                                         13
               Personal Privacy Information Found on NRC Network Drives




OFFICIAL USE ONLY APPENDIX HAS BEEN REDACTED FOR PUBLIC RELEASE




                                         14
               Personal Privacy Information Found on NRC Network Drives




OFFICIAL USE ONLY APPENDIX HAS BEEN REDACTED FOR PUBLIC RELEASE




                                         15
               Personal Privacy Information Found on NRC Network Drives




OFFICIAL USE ONLY APPENDIX HAS BEEN REDACTED FOR PUBLIC RELEASE




                                         16
               Personal Privacy Information Found on NRC Network Drives




OFFICIAL USE ONLY APPENDIX HAS BEEN REDACTED FOR PUBLIC RELEASE




                                         17
               Personal Privacy Information Found on NRC Network Drives




OFFICIAL USE ONLY APPENDIX HAS BEEN REDACTED FOR PUBLIC RELEASE




                                         18
               Personal Privacy Information Found on NRC Network Drives




OFFICIAL USE ONLY APPENDIX HAS BEEN REDACTED FOR PUBLIC RELEASE




                                         19
               Personal Privacy Information Found on NRC Network Drives




OFFICIAL USE ONLY APPENDIX HAS BEEN REDACTED FOR PUBLIC RELEASE




                         [Page intentionally left blank]




                                         20
               Personal Privacy Information Found on NRC Network Drives



C.   FORMAL AGENCY COMMENTS




                                         21
Personal Privacy Information Found on NRC Network Drives




         Official Use Only Marking Removed Per
         OEDO E-mail Dated 6/28/06 – See Page 21




                          22
Personal Privacy Information Found on NRC Network Drives




                          23
Personal Privacy Information Found on NRC Network Drives




                          24
                         Personal Privacy Information Found on NRC Network Drives



D.     DETAILED OIG ANALYSIS OF AGENCY COMMENTS

At an exit conference with the agency held on May 18, 2006, the agency provided informal
comments and generally agreed with the report recommendations. On June 20, 2006, the agency
provided a formal response with additional comments (see Appendix C).

Below is OIG’s analysis of the agency’s formal comments. NRC’s comments appear in bold
italics.

Throughout the document the phrase “accessed by all agency network users” should be
revised to read “accessed by agency network users assigned to the particular server.” The
statement, as currently written in the report, exaggerates the size of the population that had
potential access to the information.

OIG did not modify the report. According to the NRC announcement dated December 10, 2004,
the “R: drive on each server can be accessed by all agency network users.” The personal privacy
information was found on an “R:” drive; therefore according to the announcement, it can be
accessed by all agency network users. Further, the agency was unable to provide support that the
drive is restricted.

The Privacy Act of 1974 is referred to in this document as the “Federal” Privacy Act of 1974.
The word “Federal” is not part of the proper name of the statute and should be removed.

OIG modified the text as recommended. However it should be noted that MD 3.2 and the
accompanying Handbook include the word “Federal” when introducing the Act for the first time.

Reference to Management Directive 3.2, “Privacy Act,” is inappropriate, since it presumes
that the Privacy Act is a core issue in this matter. The reference to the Privacy Act is
emphasized in the report and creates the mistaken impression that some kind of Privacy Act
violation was found.

OIG did not remove references to MD 3.2, as this directive was used to determine whether the
Privacy Act was applicable to the information found on the NRC network drives. One of the
objectives of the directive is to “ensure that NRC collects, maintains, uses, and disseminates any
record of identifiable personal information in a manner that ensures that the action is for a
necessary and lawful purpose, that the information is current and accurate for its intended use,
and that adequate safeguards are provided to prevent misuse of the information.”

The second paragraph provides the correct definitions of a record and a system of records
under the Privacy Act. However, it is important to note that the described types of records
would be protected by the provisions of the Privacy Act only if they were part of a system of
records. These types of records can exist in a collection or grouping of agency records that do
not meet the criteria of a system of records (where information is not retrieved by a name or
personal identifier) and therefore would not be protected by the Privacy Act.




                                                   25
                               Personal Privacy Information Found on NRC Network Drives



OIG modified the text to include the definitions of personal privacy information and information
in an identifiable form, which also require adequate safeguards. The definitions of a record and a
system of records remain in the report, but as footnotes. However, it should be noted that some
courts have held that the “system of records” threshold requirement is not necessarily applicable
to all subsections of the Act, including the subsection requiring the establishment of appropriate
administrative, technical, and physical safeguards to ensure the security and confidentiality of
records.7 Some courts have held that this subsection can also apply to records that are not part of
a system of records.

NRC Employees Are Not Following Existing Guidance, pages 3-5 (which appears on pages 3-4
of this final report)

The end of the first sentence in the first paragraph reads “ensure that personal privacy
information is protected from unauthorized disclosure” and implies two things that are
incorrect. One is that the agency made an affirmative release of the information (implied
from the use of the term “disclosure” versus “permitting access” or something similar). The
other is the suggestion that there is a Privacy Act violation, due to reliance on the term
“unauthorized.” This overstates the situation. The phrase “unauthorized disclosure” should
be replaced with “uncontrolled access.” The availability of personal privacy information on
the network drive is not an unauthorized disclosure but a failure by the staff to institute
appropriate access controls.

OIG modified the text to describe the agency’s policies and procedures as being related to the
protection of personal privacy information rather than unauthorized disclosure.

Regarding the last sentence of the last paragraph, in the event the final document is released
to the public, the public version should not include the enclosure referenced in the document.
The enclosure contains actual samples of some of the personal privacy information, and that
release itself would result in a much greater breach of an individual’s expectation of privacy
than that highlighted in the report.

OIG modified the report so that Appendix B, which contains the samples of the personal privacy
information, is marked “Official Use Only – Sensitive Internal Information.” Appendix B will
be redacted in the publicly available version of the report.

NRC Employees are At Risk for Identity Fraud, page 6 (which appears on page 4 of this final
report)

The section heading and first sentence imply that there remains a threat of identity theft. The
staff took immediate action and deleted the files identified in the report that contained
personal privacy information. Therefore, the sentence should clarify this point along the
following lines: “The presence of personal privacy information on NRC network drives that
can be accessed by agency network users may place NRC employees at risk for identity fraud.”
A more accurate heading for this section would be “Risk of Identity Fraud.”


7
    “Overview of the Privacy Act of 1974,” United States Department of Justice, May 2004.


                                                         26
                          Personal Privacy Information Found on NRC Network Drives



OIG did not modify the report as the threat still remains. At least one of the files identified in the
report was still on the NRC network drive as of June 28, 2006. The files that have been removed
could have been accessed at any time prior to their removal, and the information from those files
still could be used to commit identity fraud.

The Agency May Not Be In Compliance With The Privacy Act, page 6 (which appears on page
5 of this final report)

There is no basis upon which to make this assertion, since it has not been established that any
Privacy Act information was involved in this matter, as acknowledged in the report itself.
Therefore, there is far too much emphasis on the Privacy Act, including reference to the
definition of a “duplicate system of records,” which is specific to the Privacy Act. Taken
together, the clear implication is that a Privacy Act violation occurred, but the plain evidence
of that is lacking. Misplaced reference to the Privacy Act in the report as a whole repeatedly
hints that violations of this law occurred, which has no foundation in fact.

OIG did not modify the report. The intent of the report was to alert the agency to the presence of
the personal privacy information on NRC network drives, not to investigate where the
information came from. The finding only points out that the information found may be Privacy
Act information.

Recommendations, page 7 (which appear on page 6 of this final report)

The recommendations could acknowledge that the agency already takes action as described in
at least one recommendation; namely, the agency does remind employees of their
responsibility to protect personal privacy information. Indeed, in the section entitled “NRC
Employees Are Not Following Existing Guidance,” the report credits the Office of
Information Services with issuing “periodic reminders to NRC employees regarding their
responsibility to protect personal privacy information,” and the report even refers to the most
recent reminder in the form of a Yellow Announcement dated September 26, 2005.

OIG did not modify the report. At the exit conference, the agency generally agreed with the
report recommendations. The report already acknowledges actions currently taken by the
agency. The finding points out that the current actions are not adequate as employees are not
following the existing guidance.




                                                    27
Personal Privacy Information Found on NRC Network Drives




          [Page intentionally left blank]




                          28
